No.

IN THE
SUPREME COURT OF THE UNITED STATES

JUDY THORPE,
Plain tiff-Pe tition er,
vs.
JUSTIN SWIDLER, ESQ.; KARPF, KARPF & VIRANT, PC; and JOHN DOES 1100, individually, jointly and severally,
Defen dants -Respon den ts.

PROOF OF SERVICE
■th
I, Judy Thorpe, do swear or declare that on this date.fivUu 6-P
. 2020, as
required by Supreme Court Rule 29, I have served the enclosea Petition for a Writ of
Certiorari on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days. The names and addresses of those served are as
follows: Counsel for Respondents-Cathleen Kelly Rebar, Esq. and Stephen T. Bissell,
Esq., of Rebar Bernstiel, 100 Overlook Place, Second Floor, Princeton, New Jersey
08540.
I declare under penalty of perjury that the foregoing is true and correct.
fK
Executed on
1 "1 . 2020.

3

Pro Se Petitioner
102 Harbor Circle
Freehold, New Jersey 07728
Phone: 1.732.303.0585
Email: nursejudvmae@gmail.com

